CERTIFICATE OF SERVICE
No. TBD
Kast
Petitioners)
v.
Erickson Productions et al.
Respondents)

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Kraig
R. Kast Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Kevin McCulloch
The McCulloch Law Firm, PLLC
501 Fifth Avenue
Suite 1809
New York, NY 10017
(212) 355-6050
kevin@mccullochiplaw.com
Counsel for Erickson Productions et al.

Lucas'DeDeus

September 5, 2019
SCP Tracking: Kast-P.O. Box 4612-Cover White

